                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A02030024           .
                                                                               11            Page 1 of 1



      On March 27,2002, we received an allegation of retaliation. Specifically, Complainant' alleged
      'acts of reprisal and intimidation against me because I reported scientific misconduct.' The
      matter was opened for inquiry on March 29.

      Complainant states that he filed a complaint with his university alleging that Subject-1' and
      Subject-23(former collaborators) listed him as a co-author on several conference abstracts
      without his permission. Complainant alleges that retaliation against him occurred as a result of
      filing this complaint, specifically:

           1. In the course of a lawsuit brought by Complainant, a lawyer questioned him about his
              relationship with Subject-1 .
           2. Subject-34asked him not to work alone and at night in the lab.
           3. His former collaborators have excluded him from their research.

      We conducted a records review to determine whether the original complaint (and thus, the
      alleged retaliation) was within our jurisdiction. We found that the alleged misconduct did not
      appear to involve NSF-funded research. We next analyzed the complaint materials. Our
      assessment is that the alleged acts are related to a lawsuit filed by Complainant against Subject-1,
      that they revolve around personal and professional issues, and that they are not in retaliation for
      the misconduct complaint.

      This matter is not within our jurisdiction. Accordingly, this case is closed.




      ' [redacted]
        [redacted]
        [redacted]
        [redacted]


                         Agent                   Attorney                Supervisor                 AIGI

  Sign 1 date
                 I                      I                        I                       I
